Audit of NARA's Security Guard 

   Contract for AI and All 



 DIG Audit Report No. 11-05 



      February 18, 2011 

Table of Contents


Executive Summary ........................................................................................ 3 


Background ..................................................................................................... 4 


Objectives, Scope, Methodology .................................................................... 5 


Audit Results ....................................... ;............................................................ 6 


Appendix A - Acronyms and Abbreviations ................................................ 14 


Appendix B - Management's Response to the Report .................................. 15 


Appendix C - Report Distribution List ......................................................... 16 

                                                               OIG Audit Report No. 11-05


Executive Summary 


In May 2009, NARA issued a $6.5 million contract to provide an armed, unifonned
protective security force 24 hours a day, seven days a week for the physical protection of
the National Archives properties located in Washington D.C. and College Park,
Maryland. The primary responsibility of the contractor is to provide daily deterrence
against unauthorized, illegal, or potentially life-threatening activities directed toward
NARA employees, visitors, infonnation programs, and property. Security support
services to be perfonned by the contractor include, but are not limited to, armed security
patrols, entrance screening and control, vehicle screening and control, personnel and asset
escort duties, traffic control, law and order duties, and security and fire safety
surveillance.

The purpose of this audit was to detennine whether NARA was properly administering
the contract, and whether the contractor was performing in accordance with contract
requirements.

We found that additional oversight was needed over the firearm qualifications of the
security officers because security officers were not following the firearm qualification
requirements of the contract. Although officers must have a MD handgun pennit and DC
Special Police Officer certification, the firearm qualification used to qualify for these
designations did not meet the level of skill required by the contract. Therefore, security
officers may not be proficient in the use of fireanns needed to stand post at NARA.

We identified additional areas of concern related to testing and training ofthe security
officers and the physical fitness of the officers. Specifically, scenario tests and exercises
were not conducted to assess security officer's response to real-world type situations. By
not conducting these tests, NARA is missing an opportunity to detennine whether the
security officers are familiar with their post orders and emergency action procedures and
whether additional training is needed. Further, the contractually required physical fitness
program was not in place to ensure officers remained physically fit to be able to perfonn
all the duties required of the job. NASS officials did not agree with our concern because
they did not consider security officers to be law enforcement and did not believe there
were many physical requirements ofthe job. However, if officers are not physically able
to perfonn all the duties of the job, they place themselves, NARA employees, and visitors
at an increased risk of injury.

This report contains seven recommendations which upon implementation will assist
NARA in administration and oversight of the contract.




                                         Page 3
                      National Archives and Records Administration
                                                             OIG Audit Report No. 11-05


Background

In May 2009, NARA awarded a $6.5 million contract to American Security Programs,
Inc. to provide, properly staff, manage and maintain an armed, uniformed protective
security force 24 hours a day, seven days a week service, for the physical protection of
the National Archives properties located at 700 Pennsylvania Avenue, NW, Washington
D.C., (referred to as Archives I), and 8601 Adelphi Rd, College Park, MD (referred to as
Archives II). The security force is to provide daily deterrence against unauthorized,
illegal, or potentially life-threatening activities directed toward NARA employees,
visitors, information, programs, and property.

According to the Statement of Work, the contractor was to furnish management,
supervisory, administrative, professional, and technically trained personnel, training,
uniforms, equipment, materials, and supplies necessary to provide routine and emergency
protective and security support services as required. These support services included
armed security patrols, entrance screening and control, vehicle screening and control,
personnel and asset escort duties, traffic control, law and order duties, and security and
fire safety surveillance.

While the contractor had the primary responsibility for training and ensuring that the
officers met certification requirements, NARA's responsibility included monitoring
contract performance. Before being assigned to a post, NARA required that all officers
undergo medical screening; and complete approximately 68 hours of contractor
provided training along with four hours of Government provided classroom training.
Security officers also had to pass a written examination and possess the necessary
certifications, licenses, and permits as required by the contract.

The OIG identified contract management and oversight as one of the Top Ten
Management Challenges for NARA. Effective contract management is essential to
obtaining the right goods and services at a competitive price to accomplish NARA's
mission. NARA is challenged to continue strengthening the acquisition workforce and
improve the management and oversight of Federal contractors.




                                        Page 4
                     National Archives and Records Administration
                                                            OIG Audit Report No. 11-05


Objectives, Scope, Methodology

The purpose of this audit was to determine whether NARA was properly administering
the contract and whether the contractor was performing in accordance with contract
requirements.

This audit included a review ofthe security guard services contract at the National
Archives Building in Washington, D.C. (AI) and the National Archives at College Park
(AIl). Security services at Presidential Libraries, Regional Archives, and Regional
Records Centers were not covered as part ofthis contract.

We reviewed the security guard contract and statement of work to identify the
requirements of the contract. To determine whether NARA developed an oversight
program to ensure service levels reach and maintain the required levels throughout the
contract we interviewed the Contracting Officer's Representative (COR) at AI and
Security Management Branch (NASS) officials at All to identify the oversight and
monitoring they provide on the contract. To determine whether the contractor established
a quality control program to assure that requirements of the contract were satisfactorily
performed we interviewed the contractor's Project Manager and selected guard
supervisors. We also obtained the contractor's Quality Control Plan and reviewed the
results of contractor performed quality control inspections, duty monitoring, and the
annual contract audit.

To determine whether training was provided to the officers and whether the topics
covered were relevant to ensure security officers remain proficient in their duties, we
obtained the contractor's training plan and reviewed documentation of training held to
determine how many officers attended the training. To determine whether officers had
been trained in the correct handling, safe use of and safeguarding of firearms and
ammunition, we reviewed the firearms qualification certifications for a sample of security
officers and observed the firearm qualification course conducted by the contractor. To
determine whether the contractor had developed and maintained a physical fitness
program for security officers we interviewed the contractor's Project Manager, reviewed
SF-78 "Certificate of Medical Examination" forms on file for a sample of security
officers, and reviewed the results of the physical fitness performance standard for those
officers.

Our audit work was performed at Archives I in Washington, D.C. and Archives II in
College Park, MD between April and November 2010. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.


                                        Page 5
                     National Archives and Records Administration
                                                                OIG Audit Report No. 11-05


Audit Results


1. Additional Oversight over Firearm Qualification Needed
Security officers did not meet the firearm qualification requirements of the contract. This
occurred because NASS did not oversee firearm qualification to ensure the training and
requalification course for security officers was as rigorous as NARA requirements. As a
result, security officers may not be proficient in the use of firearms needed to stand post
and NARA may be paying for a level of service it is not receiving.

Section 5.4 of the Statement of Work (SOW) for the Archives I and Archives II Security
Services contract states that the contractor is responsible for firearms training
requirements for those employees working on the task order and insuring those required
employees have demonstrated proficiency in firearms training and qualification. The
SOW references Attachment 7 to the contract, which outlines specific firearms
qualification and training requirements. Firearm qualification was required no less than
annually.

We reviewed a sample of 30 officers to determine whether they met the firearms
qualification requirements in the contract. Of those 30 officers, all had a range
certification from within the last year; however, we were unable to verify whether this
qualification met the level of firearm proficiency mandated by Attachment 7. Only 6 of
the 30 officers attended the firearm training and requalification course offered by the
contractor. The remaining 24 officers elected to qualify with an independent third party
instructor at their own expense.

We observed the firearm qualification held by the contractor's licensed instructor, and
found the course of fire used to qualify NARA officers differed significantly from course
of fire required in the contract. According to the contractor's instructor, the course of fire
used was the Virginia/Washington DC Department of Criminal Justice Service Practical
Pistol Course Fire. The contractor's course of fire was not as challenging as the NARA
course of fire because the course included more rounds fired at a close distance and there
were no rounds fired at 25 yards"_ (See Table 1).




       Table 1. Comparison between NARA and Contractor's Course of Fire



                                         Page 6
                      National Archives and Records Administration
                                                                       OIa Audit Report No. 11-05


Another difference was the target and scoring system used to qualify the security officers.
The NARA course of fire directed the use of the NRA B-27 target (see Figure 1 below)
where hits inside the X, 10,9, and 8 rings count as five points, hits inside the 7 ring count
as four points, and all other hits on the silhouette count as three points. The contractor
used the Q Style target (see Figure 2 below) and any hit inside the silhouette counted as
five points.




           Figure 1. NRA B-27 Target                  Figure 2. Q Style Target

In addition, although it was a timed qualification test, we observed that shots made after
the cease fire whistle were still recorded and counted towards the officer's score.
Officers were also given a chance to increase their score by the contractor's instructor
who directed them to fire two rounds during the next iteration of fire if they failed to fire
a round during the time allotted for the last round.- Even with these extra allowances, the
security officer we observed did not qualify on the first attempt.

For the remaining 24 security officers, we were unable to determine the exact course of
fire they qualified under. According to the contractor Project Manager, third party
instructors use their own course of fire to re-qualify officers because the state of
Maryland and Washington D. C. do not specify a set course of fire for the handgun
certification or Special Police Officer certification. We attempted to observe a firearm
qualification given by one of the certified third party instructors who was used by 20 of
those 24 officers. The certified instructor refused to allow the OIa to witness the re­
qualification and would not answer questions about the course of fire he used 1• The
Project Manager was unsure of the course of fire used becal1:se there is no set course of
fire for Maryland or D.C. and the contractor does not witness qualifications conducted
with a third party instructor. The Project Manager was able to confirm that the course of
fire would be modified because the officers would not be allowed to draw from their
holsters at the range used.


1 The SOW did not specify whether security officers could use a third party instructor however, the SOW
required the contractor to pay for the cost of frrearm qualification.
                                            Page 7
                         National Archives and Records Administration
                                                                          OIG Audit Report No. 11-05


We notified NASS officials of our concern that the fire ann qualification was not as
stringent as the course of fire required in the contract and that officers were re-qualifying
with a third party instructor without contractor witnesses present to attest to the level of
training and qualification. NASS officials initially shared our concern, and were
prepared to take action to ensure the security officers could meet, at a minimum, the
course of fire described in the contract. However, the NASS Chief decided that upon
review of the contract, he believed the language regarding fire ann training and
qualification was unclear and was based on the previous contract in which security
officers did not have to be dual certified in D.C. and Maryland2 . Therefore, he began
discussions with the Contracting Officer to modify the contract. According to the NASS
Chief, the modification would remove the requirement for the security officers to qualify
with the NARA fireanns course of fire. In addition, after talking with the contractor's
instructor and the third party instructor used by a majority of the officers, the NASS
Chief felt confident that the courses of fire used were sufficient for the security officers at
NARA even though both courses of fire were easier than the original course of fire in the
contrace. Lessening the requirements of the firearms qualification for security officers
creates a risk that security officers will not be as skilled in firing their weapon if needed.

The NASS Chief stated that fire ann certification (reviewing the paperwork) was included
in their Quality Assurance Plan however, they did not include fire ann qualification such
as witnessing the actual qualifications. According to the NASS Chief, firearm
qualification would be added to the Quality Assurance Plan and NASS staff would
witness a sample of qualifications. The addition of firearm qualification to the Quality
Assurance Plan will assist NASS officials in ensuring fireann qualification is sufficient.
However, ifNASS modifies the current contract to lessen the fireann qualification
requirements for its officers, NARA will be paying for a higher fireanns skill level than it
IS reCeIVIng.


Recommendations

    1. 	 The Assistant Archivist for Administration should periodically monitor firearm
         qualification for security officers by witnessing a representative sample of
         qualifications each year.

    2. 	 The Assistant Archivist for Administration should modify the contract, if needed,
         to include an option that fire ann qualifications be witnessed by a NARA
         representative, including firearm qualifications conducted by independent third
         party instructors.

    3. 	 The Assistant Archivist for Administration should enforce the use of
         Attachment 7, the NARA course of fire. If the Assistant Archivist detennines the
         NARA course of fire is too onerous for the contractor to follow, the Assistant

2 We reviewed the previous contract and found the requirement for dual certification was included in that 

contract as well. 

3 Although documentation was not available to confirm the course of fire used by the third party instructor, 

the NASS Chief stated that the course of fire included rounds fired at 1.5 yards. 

                                             Page 8
                          National Archives and Records Administration
                                                               OIG Audit Report No. 11-05


         Archivist should determine the financial impact of removing Attachment 7's
         requirements and based upon those findings, the contract should be modified and
         either renegotiated at a lower contract price or re-competed with the lesser
         contract requirement.

Management Response

Management concurs with the recommendations.


2. Practical Testing Exercises Not Conducted
Security officers have not participated in any scenario exercises to practice and test their
response to real-world type situations. This occurred because the COR directed the
contractor not to perform these scenarios until appropriate training was given to the
security officers. As a result, NARA lacks assurance that the security officers will be
able to respond to emergencies in accordance with their Post Orders and Emergency
Action Procedures.

According to the contractor's Quality Control Plan, scenario exercises are practical
testing exercises that involve the deployment of "undercover" contractor personnel who
attempt to breach security policies and then monitor the responses ofthe security officers.
Standard scenario exercises the contractor proposed to use at NARA included:


    •

    •
         -
    • attempting to gain access to facilities with • • • • • • • • • • • • •

         attempting to bring
         _      and other suspicious items onto the premises;
         attempting to access the facility with a weapon or
    •	   attempting to carry a simulated hunting knife
    •    attempting to gain access to the facility outside normal hours;
    •    attempting to gain       through the main access gate
                                     and
    •	   attemptmg to remove a document from the research room without the proper
         stamping.

The Quality Control Plan intended these scenario exercises to be conducted monthly.
However, since the contract issuance in May 2009, the contractor has not conducted any
scenario exercises. According to the NARA COR, the contractor requested permission to
conduct a scenario exercise involving an attempt to bring a weapon onto the premises but
the COR would not authorize the test until the contractor provided the security officers
with the proper training because the COR believed the contractor would be setting the
officers up to fail.

According to the contract statement of work, the contractor was to plan and conduct
refresher and sustainment training as needed, but no less than four hours each quarter.

                                         Page 9
                      National Archives and Records Administration
                                                                         OIG Audit Report No. 11-05


The contractor was also required to submit a Training Plan that would include a schedule
of all training. The contractor's Training Plan described initial training that would be
provided to new hires as well as subsequent training courses. In addition to the training
courses required to maintain certifications, the quarterly and annual training plan
included a variety of courses such as:

     •    Use of Force (2 hour course)
     •    Patrol Techniques (2 hour course)
     •    Report Writing (2 hour course)
     •    Patrol and Observation (2 hour course)
     •    Patrol Methods (2 hour course)
     •    Recognition of Patrol Hazards (2 hour course)
     •    Response to Disturbances (2 hour course)
     •    Response to Crimes in Progress (2 hour course)
     •    Arrest Procedures and the Law (3 hour course)
     •    Preservation of the Crime Scene (1 hour course)
     •    Crimes Against Persons (2 hour course)
     •    Crimes Against Property (2 hour course)
     •    Search and Seizure (3 hour course)
     •    Crowd and Riot Control Formations (1 hour course)

None ofthese refresher training courses were held for the NARA security officers. In our
review we found that most of the refresher training conducted related to maintenance of
current credentials such as CPRIFirst Aid, firearms re-qualification, baton, and training
related to customer service4 • Newly hired security officers may have attended some of
the courses listed above as part ofthe Advanced NARA Training; however, officers who
remained at NARA from the previous contractS did not receive the training.

According to an NASS official, security officers are given binders of written directions
for each post with instructions for specific emergencies. Security officers are expected to
be familiar with these procedures for responding to different emergency situations. The
NASS official stated that drills have not been conducted because so far NARA has not
had any major incidents and he was not aware of any requirement for drills to be
conducted. In addition, the NASS official stated that he does not have enough funding,
resources, or manpower to conduct the drills and that the contractor should be testing the
security officers on their knowledge of the post orders. In a quality assurance contract
evaluation completed by the contractor in August 2010, the NARA COR expressed
concern with the security officer's knowledge ofthe post orders, their knowledge of
evacuation procedures, and training. Conducting scenario exercises provides an
opportunity to test whether the security officers are familiar with their instructions and
identify any areas where additional training is needed.

4 According to the contractor, approximately 30% of the security officers received training on the X-Ray 

machine within the last year however; records of those who attended the training were not available for 

review. 

5 Approximately 95 % of the supervisors and security officers remained from the previous contract. 


                                            Page 10
                         National Archives and Records Administration
                                                               DIG Audit Report No. 11-05



Recommendation

  4. 	The Assistant Archivist for Administration should conduct, or direct the contractor
      to conduct, periodic scenario exercises to test the response of the security officers.

  5. The Assistant Archivist for Administration should conduct periodic inspections of
     the refresher training courses provided to security officers to ensure the contractor
     is following the approved Training Plan.

Management Response

Management concurs with the recommendations.


3. Physical Fitness Performance Standards Need Improvement
A mechanism to adequately measure the physical fitness ofthe security officers does not
exist. This occurred because the annual physical fitness performance test required by the
contract was not developed to test the physical abilities of the security officers. As a
result, security officers may not be able to perform all duties required of the job and
therefore place themselves, NARA employees, and visitors at an increased risk of injury.

According to the statement of work, the physical stamina of security officers in
responding to and handling emergency situations is crucial in the performance of this task
order. The contractor is responsible for developing and maintaining a physical fitness
program for all supervisors and security officers assigned to perform duties under this
task order. Supervisors and security officers annually complete a physical fitness
performance test. Before an officer can take the test, the individual must first complete a
medical screening in which a doctor reviews the security officer's overall health to
determine whether there are any medical findings which would limit the person's
performance of the job duties and/or would make himlher a hazard to himself or others.

We selected a judgmental sample of30 security officers and supervisors to review the
personnel files and determine whether the officers and supervisors had an SF-78
"Certificate of Medical Examination" on file as required by the contract. Dfthe 30 files
reviewed, only one security officer did not have a record of medical screening on file.
That security officer was sent to complete the medical screening once it was determined a
copy of the screening could not be located.

While there was an SF-78 for the officers, we noted that the first page of the SF-78 was
not always filled out to alert the examining doctor to the functional requirements and
environmental factors of the job. If the doctor is not aware of the functional requirements
or environmental factors ofthe job then the doctor would not be able to make an
informed and complete assessment of whether the individual would be limited in their
ability to perform the duties of the job.
                                          Page 11
                       National Archives and Records Administration
                                                                           OIG Audit Report No. 11-05


According to Attachment 12 of the SOW, the physical fitness perfonnance standard
includes a simulated emergency covering a pre-established course6 for Archives I and
Archives II. Security officers, including supervisors, must complete the course within 10
minutes. We noted a wide range of times that it took the security officers to complete the
test. For example, one officer was able to complete the test in 3 minutes 47 seconds
while at least two officers came close to not passing the test. One officer finished the test
in 9 minutes, 56 seconds. Another officer's recorded time was 10 minutes. The
contractor Project Manager was not aware of any security officers failing the test.

We found that the physical fitness perfonnance test does not adequately measure whether
security officers are able to perfonn the requirements ofthe contract. Specifically,
according to the SOW, security officers are to monitor building fire alann and intrusion
detection systems and other protection devices or building equipment. Security officers
will be dispatched and arrive at alann sites within three minutes of an alann activation.
The simulated emergency in the physical fitness test does not test whether officers can
respond to an alann site within three minutes; instead, it allows security officers
10 minutes to complete the course. The SOW also requires all contractor personnel
working under this task order to be in good physical condition and health, able to protect
themselves and others, and withstand sudden emotional stress and physical exertion in
apprehension of suspects and violators. An excerpt from the SOW is shown below:

           "Responding to an emergency situation will be on foot, requiring running,
           jumping, climbing, and/or crawling, and followed by physical efforts as
           necessary to resolve the emergency situations such as assisting in
           suppressing fires, evacuating personnel, and overpowering an intruder or
           violator as necessary."

None of these physical activities were included in the annual physical fitness
perfonnance test.




Action Procedures require security officers to
                              Security officers _           assist Police as requested.
  "r","!"r\1·", NARA should ensure security officers are physically fit to perfonn duties as
necessary on the contract and to assist Police as requested in responding to an emergency.




6   The pre-established course consisted of climbing up and down stairs.
                                               Page 12
                            National Archives and Records Administration
                                                            OIG Audit Report No. 11-05


Recommendation

  6. 	The Assistant Archivist for Administration should develop a new fitness standard to
      test the physical fitness of the security officers that more closely resembles the
      requirements of the contract.

  7. The Assistant Archivist for Administration should direct the COR to review the SF­
     78 forms for completeness before security officers are allowed to participate in the
     physical fitness performance standard test.

Management Response

Management concurs with the recommendations.




                                      Page 13
                    National Archives and Records Administration
                                                  OIG Audit Report No. 11-05


Appendix A - Acronyms and Abbreviations


COR    Contracting Officer's Representative
NARA   National Archives and Records Administration
NASS   Security Management Branch
SOW    Statement of Work




                               Page 14
            National Archives and Records Administration
                                                                                OIG Audit Report No. 11-05


      Appendix B - Management's Response to the Report 





      ARCHIVIST of the . 

      UNITED STATES 

      DAVID S. FERRIERO
        T: 202.357.5900
        F: 202.357.5901
        davidj,rrlero@nara.gov

     10 February 2011

    To:      Paul Brachfeld, Inspector General 

    From:    David S. Ferriero, Archivist of the United States 

    Subject: OIG Report 11-05, Audit of NARA's Security Guard Contract for AI and AIl 


    Thank you for the opportunity to review this draft audit. The stated purpose of this audit was
    to determine whether NARA was properly administering the contract and whether the
    contractor was performing in accordance with contract requirements. The audit included
    findings relating to firearms qualifications for security officers, scenario testing and refresher
    training for security officers, and the physical fitness of the security officers. We concur with
    the seven recommendations, and have begun work on an action plan to satisfy them.

    With respect to the requisite course of fire for certifying security guards, the audit expressed
    concern that security officers are not being required to meet the terms of the contract. Since
    receiving the draft audit report, NAS notified the contractor that it has not been meeting the
    terms of the contract with respect to the course of fire required by Attachment 7 of the contract
    and requiring the contractor to remedy its performance. In a letter dated December 30, 2010,
    the contractor stated that all NARA security officers are currently being qualified using the NARA
    Firearms Course of Fire. Copies of these letters are attached for your reference.

   In our action plan, we will provide details about our work with the contractor"on 'sCenario design
   as well as monitoring and testing to ensure that security officers are well prepared to address a
   wide variety of situations. Our action plan will also reflect a request for proposal for a physical
   fitness program as noted in section 6.7 of the contract.

   Finally, we are gathering information from other Federal agencies to ensure that our security
   guard contract and its implementation meet best practices wherever possible. If you have
   questions about these comments, please contact Mary Drak at mary.drak@nara.gov or by
   phone at 301-837-1668.

~A~-
 David S. Ferriero 

   Archivist of the United States 

 NATIONAL ARCHIVES and
 RECORDS ADMINISTRATION

700 PENNSYLVANIA AVENUE. NW
WASHINGTON. DC 20408-0001
      www.archives.gov                              Page 15
                                 National Archives and Records Administration
                                                         OIG Audit Report No. 11-05


Appendix C· - Report Distribution List

Archivist of the United States
Deputy Archivist ofthe United States
Assistant Archivist for Administration
Management Control Liaison, Policy and Planning (NPOL)




                                      Page 16
                   National Archives and Records Administration
